No.

IN THE SUPREME COURT OF THE
UNITED STATES OCTOBER TERM 2020

ALPHONSO CAVE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
On Petition for a Writ of Certiorari
to the Supreme Court of Florida
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner ALPHONSO CAVE, a death-sentenced Florida prisoner, asks leave
to file the attached petition for a writ of certiorari without prepayment of costs and
to proceed in forma pauperis. Petitioner has previously been granted leave to
proceed in forma pauperis in his case in the Florida trial court and Florida Supreme

1

Court, and counsel currently representing the Petitioner were appointed by the
trial court pursuant to Fla. Stat. ยง 27.710.
Petitioner respectfully requests that this request be granted.
Respectfully submitted,
/s/ Joseph S. Hamrick________
JOSEPH S. HAMRICK, ESQ.
Counsel of record
Fla. Bar No. 47049
527 Peyton St., Unit 2
Geneva, IL 60134
904-403-4466
joseph.s.hamrick@gmail.com
Attorney for Mr. Cave

RICHARD ADAM SICHTA, ESQ.
Fla. Bar No. 669903
301 W. Bay St. Suite 14124
Jacksonville, FL 32202
904-329-7246
rick@sichtalaw.com
Attorney for Mr. Cave

2

